                              CLOSEOUT FOR W4030024
        This case arose out of another more serious case in which a different subject was alleged
 to have plagiarized from a number of proposals, including the proposals at issue in this case.
 This case involves allegations of plagiarism and misrepresentation in a proposal against Dr.
(        t       h         e subject), a professor in the Department of      i-
 ~niversitv(the institution). It was alleged that the subject copied text from NSF proposalW


subject's NSF proposal-                 Both proposals are departmental equipment proposals
to the Instrumentation and Laboratory Improvement (LI)   Program,and the two PIS are in the
same department. The subject's proposal is entitled, "

that the subject misrepresented information in his proposal that was unsupported by the reference
to which he attributed it.

        OIG determined that approximately 190 lines out of a total of 364 lines in the subject's
proposal were identical or substantially similar to the source proposal; there was no attribution
or offset of these lines. When OIG contacted the subject, he explained that

        When our department writes proposals, we work on them jointly. . . . Therefore
        we consider the material as a department contribution to be used by all permanent
        members within the department when writing a proposal.

The other PI confirmed that the subject had permission to copy from his proposal. However,
the subject did not explain why he had not acknowledged the source of the copied material.

         OIG also asked the subject to explain the basis for a statistic in his proposal which was
alleged to be a misrepresentation. The subject conceded that the reference supporting the
statistic was incorrect, and supplied OIG with another reference from which he claimed to have
gotten the statistic. OIG found that the statistic could not be found in the second reference
either.

         Because of the large amount of material in the subject's proposal that was identical to that
in the other PI'S proposal, and our other case alleging plagiarism from the same proposals by
another subject from the same institution, OIG believed that we should obtain the views of the
institution regarding the acceptable practices in this area. Thus, OIG deferred further inquiry
into the allegations of plagiarism and misrepresentation to the institution.



                                            Page 1 of 3
                                 CLOSEOUT FOR ~ 4 0 3 0 0 2 4


Alleged Plagiarism

       The institution's committee explored the department's practices with regard to the sharing
of material in faculty proposals. The inquiry report' stated that

       mt has been a long standing practice of [the department] to collaborate on the
       writing of grant proposals. All proposals are circulated to each department
       member . . . [l'lhe proposal is a collaborative effort for which all members share
       responsibility. . . . mt is clear that the two proposals sought the procurement of
       equipment with similar functions . . ., justified the procurement with similar
       rationales . . ., and involved the same group of professors . . . Consequently,
       we would expect that the proposals would share sections, including those that
       describe generic justifications for the purchase of equipment.

        The subject's proposal adopted some of the rationales and background material from the
other PI's proposal, but had unique sections regarding the proposed use and specifications of the
equipment requested. The committee stated that the use of generic descriptions of facilities and
rationales may be appropriate in departmental equipment proposals, but not in an individual PI's
original research proposal.

        The committee also stated that it had not been the practice of departmental faculty to cite
the source of sections copied from previously submitted equipment proposals by departmental
faculty. Department faculty follow this practice when the section involves essentially the same
rationale or description of facilities, and the section is a collaborative writing effort. The
department believes that in such cases, when the proposal acknowledges past NSF support, it
is unnecessary to cite the source of material incorporated from a previous proposal. It found
that the actions of the subject were not a serious deviation from accepted practices.

        Although OIG believes it is preferable to cite the use of all material incorporated from
other sources, particularly when the quantity of material incorporated is substantial, OIG agrees
that under the circumstances of this case, the failure to cite the source proposal did not warrant
further pursuit.



       The statistic in the proposal was not found in either the reference in the proposal or the


    'Under NSF's regulation, the institution conducted an investigation, since it examined and
evaluated "relevant facts to determine whether misconduct has taken place[.]" 45 C.F.R.
5 689(c).
                                          Page 2 of 3                                 M94030024
                                 CUBEOUT FOR M94030024


second reference provided to OIG by the subject. The subject provided yet a third reference to
the institution's inquiry committee which was the correct source of the statistic. The subject
indicated to the committee that the citation to the original reference in his proposal was an error,
and that he submitted the second reference because he had been unable to find the correct source
when first requested to supply it by OIG. The new reference is the correct source of the
statistic, which therefore was not a misrepresentation. OIG believes that the subject's failure
to cite the correct source in his proposal, followed by his provision to OIG of a second reference
which could not possibly have been the source of the statistic, was careless and irresponsible of
the subject. Careless actions such as these do not meet the expectations of scholarship or
standards set by the scientific community; however, they are not misconduct in science.

       OIG concluded that both the allegations of plagiarism and misrepresentation did not
warrant further pursuit. Thus, this case was closed.


cc:    Deputy AIG-Oversight, AIG-Oversight, IG




                                           Page 3 of 3
